<html>
<title> - OVERSIGHT HEARING ON THE BROWNSFIELD'S PROGRAM - CLEANING UP AND REBUILDONG COMMUNITIES</title>
<body><pre>[Senate Hearing 112-984]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 112-984

                       LEGISLATIVE HEARING ON THE
                           SAFE CHEMICALS ACT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON SUPERFUND, TOXICS
                        AND ENVIRONMENTAL HEALTH

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov

                               __________

                   U.S. GOVERNMENT PUBLISHING OFFICE                    
24-968PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c7b6c735c7f696f687479706c327f737132">[email&#160;protected]</a> 




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director

       Subcommittee on Superfund, Toxics and Environmental Health

                     FRANK R. LAUTENBERG, Chairman
MAX BAUCUS, Montana                  MIKE CRAPO, Idaho
THOMAS R. CARPER, Delaware           LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
KIRSTEN GILLIBAND, New York          JOHN BOOZMAN, Arkansas
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 17, 2011
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Carper, Hon. Thomas, U.S. Senator from the State of Delaware.....     5
Gillibrand, Hon. Kristen, U.S. Senator from the State of New York     6
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     7
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................

                               WITNESSES

Sturdevant, Ted, Director, Department Of Ecology, State Of 
  Washington.....................................................     8
    Prepared statement...........................................    11
Responses to additional questions from:
    Senator Boxer................................................    24
    Senator Carper...............................................    28
    Senator Inhofe...............................................    29
Brody, Charlotte, Director Of Chemicals, Public Health And Green 
  Chemistry, Bluegreen Alliance..................................    32
    Prepared statement...........................................    34
Responses to additional questions from:
    Senator Boxer................................................    37
    Senator Carper...............................................    39
    Senator Inhofe...............................................    40
Dooley, Cal, President and Ceo, American Chemistry Council.......    42
    Prepared statement...........................................    44
Responses to additional questions from:
    Senator Carper...............................................    65
    Senator Inhofe...............................................    68
Matthews, Robert, Counsel, Consumer Specialty Products 
  Association....................................................    75
    Prepared statement...........................................    77
Responses to additional questions from:
    Senator Carper...............................................    85
    Senator Inhofe...............................................    87
Denison, Richard, Senior Scientist, Environmental Defense Fund; 
  Safer Chemicals, Healthy Families Coalition....................    91
    Prepared statement...........................................    93
Responses to additional questions from:
    Senator Boxer................................................   107
    Senator Carper...............................................   110
    Senator Inhofe...............................................   113

                          ADDITIONAL MATERIAL

Statements:
    Business Alliance Committed to Finding the Right Approach to 
      Updating TSCA..............................................   153
    American Cleaning Institite..................................   156
    Edison Electric Institute....................................   158
    National Council of Churches.................................   160
    National Petrochemical & Refiners Association (NPRA).........   161
    Society of Chemical Manufactures & Affiliates................   166
    Dr. Paul A. Locke; Associate Professor at John Hopkins 
      Bloomberg School of Public Health..........................   170
    Physicians Committee for Responsible Medicine................   175
    S.C. Johnson & Son, Inc......................................   182

 
   OVERSIGHT HEARING ON THE BROWNSFIELD'S PROGRAM - CLEANING UP AND 
                         REBUILDONG COMMUNITIES

                              ----------                              


                      WEDNESDAY, OCTOBER 19, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
                    Subcommittee on Superfund, Toxics and  
                                      Environmental Health,
                                                    Washington, DC.
    The committee and subcommittee met, pursuant to notice, at 
10 a.m. in room 406, Dirksen Senate Office Building, Hon. Frank 
Lautenberg [chairman of the subcommittee, presiding.
    Present: Senators Lautenberg, Inhofe, Crapo, Carper, 
Cardin, Whitehouse, Barrasso, Udall, Merkley, and Gillibrand.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. We welcome the witnesses. Obviously, I 
guess we all think that when we have an issue before the 
public, that we all think it is very important. Needless to 
say, I am not going to differ with the usual routine here.
    I will start off on what I hope will be a good setting for 
the birthday of my colleague and friend, Senator Inhofe. He is 
younger than I by a few years. It is not noticeable, I know, 
but take my word for it. There is a degree of envy, and we wish 
him happy birthday. We have had I won't say it is a unique 
relationship, but it is one that we don't agree necessarily on 
all the subjects, but we agree on respect for one another and 
it is always great to work with Senator Inhofe.
    During the past 2 years, this Committee and the 
Subcommittee have held five hearings that identified serious 
problems with the Toxic Substance Control Act, known as TSCA. 
And today, we are starting to look for our solutions to those 
problems and discuss them publicly.
    In our previous hearings, we uncovered dangerous and costly 
deficiencies in TSCA and this Committee heard from CDC 
officials who told us their scientists found 212 industrial 
chemicals, including six carcinogens coursing through America's 
bodies. Twice, we have heard from EPA Administrator Lisa 
Jackson, who told us under current law that her agency lacks 
the tools it needs to regulate high-risk chemicals.
    And we heard from others who shared their anxiety about 
having no system for determining which everyday chemicals might 
hurt them or their children.
    TSCA is so severely flawed that the nonpartisan Government 
Accountability Office testified that it is a ``high-risk area 
of the law.'` Our hearings also revealed the status quo does 
not work for the chemical industry either. In the hearing last 
February, executives from Dow and DuPont, two major chemical 
companies, testified in support of reform in part because of 
the difficulties their companies face operating under different 
rules and in different States.
    We heard similar messages earlier from the chemical maker 
BASF and S.C. Johnson, the global consumer product company. We 
heard from colleagues on both sides of the aisle who agree that 
TSCA must be revised to work better for businesses and the 
health of our citizens.
    Now, I first introduced legislation to address TSCA's 
shortcomings in 2005. Since then, my legislation has evolved 
through scientific advances and feedback from various other 
sources, including the chemical industry. At a hearing nearly 2 
years ago, I told this Committee the bill should be considered 
an invitation to all to play a part, and I meant it seriously. 
I invite colleagues with whom we might have some sharp 
differences, let's sit down and talk about it. This is 
important enough that we want to keep the door open and we will 
listen to ideas or views that others have.
    Many Members on our side offered ideas that are included in 
the newest version of my bill and I am pleased that most of the 
Committee's Democrats are now co-sponsored. We also heard from 
Senator Vitter, who said that TSCA reform legislation must be 
based on sound science and called for more input from the 
National Academy of Sciences on chemical risk assessment.
    So this year's version of the Safe Chemicals Act mandates 
that EPA use the best available science, as defined by the 
ongoing work of the National Academies. Last summer, Senators 
Inhofe and Barrasso raised concerns about inadvertently 
depriving our economy of chemicals that are essential to daily 
life. And I mentioned something here that was, as they say, up 
front and personal. When I had six courses of chemotherapy last 
year and I was mighty glad to meet the chemicals, I can tell 
you, and they treated me nicely.
    So we know that there is lots of value that comes from 
chemicals, and we want to be sure that we don't get in the way 
of availability of those products, but we do want to watch out 
for those that might bring harm instead.
    As a result, we have included provisions to ensure the 
continued availability of chemicals for critical or essential 
uses. Concerns were also raised about our proposal for 
prioritizing certain chemicals for safety review, so we 
completely overhauled that section of the bill.
    Earlier this year, Senator Inhofe and I met about trying to 
make this bill bipartisan. And he suggested a process for 
getting more ideas from industry and others on the table. 
Throughout the summer, our staffs held 10 meetings with 
representatives from industry, from labor and environmental 
groups on different sections of the Safe Chemicals Act. Those 
meetings increased understanding of the bill's strengths, as 
well as areas that could be improved.
    Today's hearing is an opportunity for the witnesses and 
Members of the Committee to take the next step toward a 
bipartisan bill. And if there are concerns with something in 
the Safe Chemicals Act, I hope that you will either offer a 
suggestion for improving it or commit to working through the 
details with us in the next 2 weeks.
    The bottom line is this: This legislation establishes a 
strong, but practical system for guaranteeing the safety of 
chemicals, many of which end up in our bodies and the bodies of 
our children and we remain open to other ways of achieving our 
shared goal of a system that improves safety and encourages 
continued innovation and growth in the chemical industry.
    But we have got to get going. We have to act soon. I plan 
to call for a vote in this Committee in the near future and I 
hope that we will be able to address any concerns that might be 
raised today so we can approve a bipartisan bill that 
encourages the use of chemicals that help and protect our 
children from the chemicals that harm.
    Senator Lautenberg. Is Senator Crapo going to be here 
shortly, do you know?
    Senator Inhofe. I am sitting in for him.
    Senator Lautenberg. Oh, OK, a birthday treat for Senator 
Inhofe. He can fill in.
    Senator Inhofe. Thank you. Thank you.
    As I understand it, Mr. Chairman, this is a joint full 
Committee and Subcommittee, so that would be appropriate.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. I appreciate the comments you made, and I 
know that it isn't only on my birthday that I get those 
comments because it surprises a lot of people that Senator 
Lautenberg and I are very good friends. We have a mutual 
respect, and we know the areas where we disagree. And I think 
it is appropriate the way he is doing this.
    The stakeholders meetings were very thoughtful. We learned 
a lot from the participants as efforts to modernize TSCA 
continue in the future. These discussions will undoubtedly help 
to build a foundation for eventual reforms. The participants 
were candid and forthcoming with their unique viewpoints and I 
look forward to building an agreement around that. And I think 
that is a good start, bringing the people in to talk about 
these things.
    While we often heard very conflicting ideas from 
stakeholders on how TSCA should be modernized, we also 
identified a few areas of potential common ground and I think 
that that warrants further discussion. Although our hearing 
today is on S. 847, which is not incorporated in what we have 
learned from the stakeholders process, it is a starting point, 
I recognize that.
    It is a battle, given the unemployment rate hovering around 
9 percent and numerous costly new regulations coming from this 
Administration that we make sure that any toxic reforms help to 
not only protect human health, but jobs and the economy. That 
has got to be part of the consideration as we develop this 
thing.
    My interest in TSCA modernization, which I have said 
before, is in large part due to TSCA's broad reach over 
chemical manufacturing and its potential and real impacts on 
the economy. TSCA regulates the manufacturing, the 
distribution, use and disposal of chemicals, authority that 
covers thousands of transactions and decisions by thousands of 
people every day, and I have consistently said that TSCA must 
be accomplished with a broad base of support, including 
industry up and down the value chain. It also must take into 
account the small-and medium-size businesses that could be 
affected the most if the law is updated improperly.
    Our witnesses today represent a few of the stakeholders we 
heard from in the course of our meetings that we had. They 
possess a wide range of perspectives on TSCA modernization and 
its implementation, but we must not forget that there are 
plenty of other groups that have strong interest in this, other 
stakeholders as well.
    At this time, I would like to ask unanimous consent to 
place into the record the statements from the American Cleaning 
Institute, the Grocers Manufacturers Association, the Society 
of Chemical Manufacturers and affiliates, and the National 
Petrochemical and Refiners Association.
    Senator Lautenberg. Without objection.
    [The referenced documents follow:]
    Senator Inhofe. While I believe it is time to bring this 35 
year old statute into the 21st century, it is also important 
that we do it right, and I am sure that this is a good start in 
that, Mr. Chairman.
    Thank you.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
               U.S. Senator from the State of California

    I would like to begin by thanking Senator Lautenberg for 
scheduling a legislative hearing on S. 847 the Safe Chemicals 
Act of 2011. I would also like to thank him and his staff for 
inviting us to co-host a series of listening sessions, which 
included not only our staffs, but representatives from industry 
and the environmental community.
    The stakeholder meetings were very thoughtful and we 
learned a great deal from the participants. As efforts for 
modernizing TSCA continue in the future, these discussions will 
undoubtedly help to build a foundation for eventual reforms. 
The participants were candid and forthcoming with their unique 
viewpoints and I look forward to building agreement around some 
of the many challenges facing TSCA reform moving forward.
    While we often heard very conflicting ideas from 
stakeholders on how TSCA should be modernized, we also 
identified a few areas of potential common ground, and I think 
that warrants further discussions. Although our hearing today 
is on S. 847--which has not incorporated what we learned in the 
stakeholder process or addressed many longstanding concerns--I 
am encouraged that this bill helped begin a constructive dialog 
that may help lead to a workable bill which down the road could 
pass both the House and Senate and become law.
    It is vital--given an unemployment rate hovering around 9 
percent and numerous costly new regulations coming from this 
administration--that we make sure any TSCA reforms help to not 
only protect human health, but jobs and the economy. My 
interest in TSCA modernization--which I have said before--is in 
large part due to TSCA's broad reach over chemical 
manufacturing and its potential, and real, impacts on the 
economy. TSCA regulates the manufacturing, distribution, use, 
and disposal of chemicals--authority that covers thousands of 
transactions and decisions by thousands of people every day.
    I have consistently said that TSCA modernization must be 
accomplished with a broad base of support, including industry 
up and down the value chain. It also must take into account the 
small and medium size businesses that could be affected the 
most if the law is updated improperly. Our witnesses today 
represent a few of the stakeholders we heard from in our 
meetings. They possess a wide range of perspectives on TSCA 
modernization and its implementation but we must not forget 
that there are plenty of other groups that have a strong vested 
interest in this effort and need to be considered as well.
    At this time I would like to ask unanimous consent to have 
statements from the American Cleaning Institute, the Grocery 
Manufacturers Association, the Society of Chemical 
Manufacturers and Affiliates, and the National Petrochemical & 
Refiners Association--all of whom also participated in the 
stakeholder meetings--inserted into the record.
    While I believe it is time to bring this 35 year old 
statute into the 21st Century, it is equally as important that 
we do it the right way without harming American innovation or 
shipping jobs overseas.
    My principles for reform remain the same: any modernization 
of TSCA should be based on the best available science; use a 
risk-based standard for chemical reviews; include cost-benefit 
considerations; protect proprietary information; and must 
prioritize reviews for existing chemicals.
    These are principles I have stood by for many years and I 
think are vital to a successful TSCA modernization process that 
is appropriately protective, predictable, efficient, and 
revives confidence in our Federal chemical management system.
    Again, I appreciate Sen. Lautenberg's work on this issue 
and his willingness to gather information in a constructive, 
bipartisan nature. I look forward to hearing from the witnesses 
today.

    Senator Lautenberg. Thanks very much.
    Senator Carper.

           OPENING STATEMENT OF HON. THOMAS CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, thank you. And I want to join 
all of our colleagues in wishing Jim happy birthday. It is a 
joy to here with you today. And I think a great gift that gets 
him out of the conversations between--of both our Chairman and 
Senator Inhofe on, and with your staffs, it would be a great 
gift for our Country.
    I just want to commend you for the time and energy that you 
and your staffs are putting into this. These are important 
issues that I care a lot about. I know others do as well.
    Every day in this Country, manufacturers use, as we know, 
various chemicals to make everything from carpets to cosmetics, 
cars, water bottles, dishwashing soap, and we need these 
chemicals to keep our manufacturing base strong. We also need 
to make sure that we are using and disposing of them safely.
    As others have said, it has been more than 30 years since 
we revisited the Toxic Substance Control Act, and that is far 
too long when we consider how much more we manufacture and use 
chemicals today and how much more we understand today about 
those chemicals.
    Industry, environmental and public health leaders, the 
Obama administration, several of our colleagues in Congress, 
including me, all agree that current law is not sufficient and 
it is time that the Toxic Substance Control Act is modernized.
    From what I understand, the principles for TSCA reform that 
have been outlined by the chemical industry, the NGO community 
and other stakeholders are remarkably similar, and that is 
encouraging. I believe that there is a path forward to 
reforming TSCA that we can address, that will enable us to 
address the needs of our diverse stakeholders on this issue, 
including our constituents.
    Senator Lautenberg has introduced, as we know, a bill to 
strengthen our chemical safety law that has gone through 
several iterations. I think it is not just a good start, but it 
is a good process that is underway. And I just want to say to 
Senator Inhofe that I look forward to working with both of you 
and with our colleagues here in the Senate in our efforts to 
try to pass strong chemical safety legislation.
    I look forward to hearing from our witnesses today, 
especially the guy in the middle, with whom I was pleased to 
serve in the House lo those many years ago. Cal, it is 
especially nice to see you. Welcome one and all.
    Thanks so much.
    Senator Lautenberg. Thanks very much, Senator Carper.
    We will proceed with the witnesses. Welcome. Each of you 
brings experience and obviously a point of view.
    Oh, my goodness, surprise.
    Senator Gillibrand I think was the next arrival and we look 
forward to hearing from you.

         OPENING STATEMENT OF HON. KRISTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Senator Lautenberg, for your 
leadership on such an important issue, one that very deeply 
affects our constituencies and the whole Country. I appreciate 
that the Committee is going to examine the Safe Chemicals Act 
which aims to modernize TSCA. And I, too, have read the studies 
and reports that have found toxic chemicals in everyday 
products.
    Since TSCA became law more than 30 years ago, we have seen 
an unacceptable rise in childhood cancers, learning 
disabilities, birth defects, allergies, asthma, autism and 
infertility. Our children are being exposed to hundreds of 
chemicals before they are even born. Umbilical cord blood 
samples show exposure to over 200 chemicals from BPA, which is 
found in plastic bottles, flame retardants which are used in 
electronics and in furniture, and PCBs, a known carcinogen that 
has remained in our soil and water decades after it has been 
banned.
    Congress can no longer afford to ignore the failures of 
TSCA to prevent public health any longer. The issue of the 
effectiveness of our Nation's chemical regulations is extremely 
important to all Americans and in particular to mothers like 
me. We must stand with parents across the Country who have 
joined together to demand better from their elected leaders.
    It is just not good enough for the Federal Government to 
sit on the sidelines while States are forced to fill in the 
void and take matters into their own hands. In my home State of 
New York, the State legislature passed critically needed 
reforms, like protecting babies from toxic chemicals, BPA in 
baby bottles and other cancer-causing chemicals found in 
nursing pillows and in baby carriers. In all, 25 States across 
the Country have passed 80 chemical safety laws in 9 years, 
with overwhelming majorities and strong bipartisan support.
    I applaud this action at the State level, but we need a 
national policy that ensures chemicals in products are safe in 
every State and for every family.
    The legislation we are examining today, the Safe Chemicals 
Act, changes the current paradigms to put the burden on proving 
a chemical is safe on industry and provides that our regulators 
need to finally allow this law to work as it was intended. As 
the legislation moves forward, it is essential that the final 
product make meaningful reforms that will give comfort to 
consumers that the products that they purchase for their 
families are safe.
    Mr. Chairman, earlier this year, I heard the story of Mira 
Brouwer, a young girl from Ithaca, New York, who at the age of 
just 4 years old passed away as the result of complications in 
the treatment for brain cancer. Faced with the loss of her 
young daughter, her mother, Chistine Brouwer, founded Mira's 
Movement. It is an organization to raise awareness of pediatric 
cancer.
    [Audience interruption.]
    Senator Gillibrand. I agree. I agree with you.
    [Laughter.]
    Senator Gillibrand. Mira's mother shared her story and her 
questions and concerns about what could have contributed to her 
daughter's cancer. She pored through study after study that 
identified the potential links between chemicals in our 
environment and such cancers, just like the one that took 
Mira's life. We owe it to Mira and thousands of the children 
who are facing similar ailments to ensure that the products 
that we produce in this Country and that we purchase for our 
families are safe.
    Thank you, Mr. Chairman, for looking at this important 
issue.
    Senator Lautenberg. Thank you very much.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Mr. Chair. Senator, your 
leadership on this issue has been extremely important, and your 
commitment to modernizing the Toxic Substance Control Act so we 
can protect our families from exposure to dangerous toxins is 
terrific. So thank you for doing that.
    Oregon has been a leader among the States in attempting to 
limit toxic chemicals, ranging from flame retardants to 
mercury, cyanide and so forth. But we are not satisfied. Our 
families are not satisfied with the protection from dangerous 
chemicals that exist currently.
    Oregon is among the top five in the Nation for adult asthma 
rates, the top 10 for breast cancer, near the top for autism, 
and these kinds of diseases are linked to toxic chemicals in 
our environment.
    The shocking part for me is that the Environmental 
Protection Agency has been unable to protect our families from 
exposure because the Toxic Substance Control Act does not 
provide EPA with the necessary tools to collect data on 
chemical risk and effectively regulate the most toxic 
chemicals.
    And who are most impacted by this? It is consumers and 
families across America who don't know if they are using 
products that could be harmful to their health.
    Reforming TSCA makes common sense. We know that many 
American companies currently have to prepare to abide by the 
REACH law in Europe, which requires much higher control of 
chemical toxins. We know that many States, as my colleague just 
referred to, have gone out on their own to try to pass laws, as 
New York has, as Oregon has, as so many have, because of the 
vacuum in Federal policy. It makes sense to have a Federal 
policy to regulate toxic substances that actually works.
    So I look forward to the hearing today and to doing all I 
can to help take this important bill forward to protect the 
health of Americans across this Nation.
    Senator Lautenberg. Thank you very much, Senator Merkley.
    And now we ask our witnesses to make their statements. 
Today, we are going to hear from a range of experts who have 
significant experience in chemical safety: Mr. Ted Sturdevant, 
Director of the Washington State Department of Ecology; 
Charlotte Brody, Director of Chemicals, Public Health and Green 
Chemistry for the BlueGreen Alliance, a national partnership of 
labor unions and environmental groups; and Mr. Cal Dooley, 
President and CEO of the American Chemistry Council; Mr. Robert 
Matthews, a partner in the law firm of McKenna Long & Aldridge, 
and counsel to the Consumer Specialty Products Association; and 
Dr. Richard Denison, Senior Scientist for the Environmental 
Defense Fund.
    And we welcome you.
    And Mr. Sturdevant, you are the first, and please give us 
your testimony.

 STATEMENT OF TED STURDEVANT, DIRECTOR, DEPARTMENT OF ECOLOGY, 
                      STATE OF WASHINGTON

    Mr. Sturdevant. Thank you, Chairman Lautenberg, Ranking 
Member Inhofe and Members of the Committee for this opportunity 
to testify. I am Ted Sturdevant, the Director of the Washington 
State Department of Ecology.
    It is very significant that this Committee is willing to 
open the conversation on TSCA reform and I applaud you for the 
open and inclusive dialog that you have had to date. And I want 
to particularly recognize the leadership of Senator Lautenberg 
for offering this legislation, and to Senator Inhofe for 
supporting such an inclusive dialog.
    This is a critical issue for the States and I appreciate 
the chance to share our perspective.
    So today, what I would like to do is talk about why States 
care so much about TSCA reform; what we have had to do in the 
face of an outdated TSCA; and speak just a little bit about the 
preemption of States' authority in this arena.
    So why do States care about TSCA? As State environmental 
agencies around the Country, part of our job is to protect 
people and the environment from harmful exposure to toxic 
chemicals. When those chemicals come from a pipe or a 
smokestack, we know what to do. We have the tools to deal with 
that. But when they come from ubiquitous products like foam and 
furniture or the plastic casings of a television or toys, we 
don't have the tools to deal with those.
    We can't intercept chemicals that leave products and get 
into our public waterways via wastewater or stormwater runoff 
with potential human exposure along the way. We are just not 
good at that.
    So as we grow concerned about a particular chemical or 
chemicals in our States, we face a very difficult choice. And 
that is, do we tackle that chemical or chemicals with 
inadequate tools and resources or do we look the other way? And 
more and more, what you are seeing are States deciding to act 
and step up to this. So even with those inadequate tools, that 
is the pattern we are seeing in the States.
    But our preference is for a third option, and that is for a 
Federal system that works. So I want to share an example of 
what we face and really how ill-equipped we are to deal with 
this kind of thing. In Washington State, we are undertaking a 
massive effort to restore and protect Puget Sound, the Nation's 
second-largest estuary. And in the city of Tacoma, which sits 
on Commencement Bay in the Sound, we have spent over $100 
million cleaning up contaminated sediments in the bay. And last 
year, for the first time, we started to see improved health in 
those sediments, which was great news.
    But at the same time, we are seeing phthalates come in via 
stormwater runoff and settle on top of those sediments. 
Phthalates are plasticizer chemicals that are used in a wide 
variety of consumer products. And they are endocrine disrupters 
which can have harmful reproductive and development effects.
    So I don't mean to open the debate about the science of 
phthalates, but we are concerned about these things getting 
into the food chain in Puget Sound and concerned about impacts 
on people that harvest food from Puget Sound.
    So the problem here is that we don't know what to do about 
it. We don't have the tools. We don't have any means of really 
doing anything about that particular source of pollution. And 
we don't have any means of protecting that investment that we 
have made in the bay. And I think that this is exactly the kind 
of problem that should be addressed by TSCA and don't have 
confidence that it will be.
    So even without the right tools, as I said, States are 
tackling these challenges more and more. In the last 8 years, 
18 States have passed chemical policy legislation and I think 
it is fair that we will continue to see those kinds of efforts 
in the upcoming legislative session.
    And it is important to note that this has not been a 
partisan issue at the State level. The votes on these things 
have been strongly bipartisan because it is a public health 
issue.
    Now, before I conclude, I want to speak briefly to the 
issue of preemption of States' authority. Given the patchwork 
of regulations that is taking hold across the Country in 
States, some people believe that absolute preemption of States' 
authority is necessary. I understand the concern, sympathize 
with the concern, but disagree with that approach for two 
reasons.
    First, as you said, TSCA has not been reformed for 35 
years, so the States have been the folks that have filled that 
gap in the meantime and we need to have the authority to do our 
job, to deal with the unanticipated challenges of the future 
that TSCA may not address, even a reformed TSCA may not 
address.
    And second, we are not doing this because we don't have 
anything better to do. We are doing this because we think we 
have to, because these challenges exist that are not getting 
addressed.
    So I believe that if there is a national solution to this 
problem, preemption of States' authority really becomes a non-
issue because we will then direct, I think, our scant resources 
elsewhere. And we appreciate that the proposed bill preserves 
States' authority.
    We also appreciate the sensible approach of requiring 
minimum data-sets on chemicals and showing that they meet 
safety standards. The bill's provisions for sharing data with 
States, while maintaining confidentiality and enabling EPA to 
deal with the highest-risk chemicals are also appreciated.
    So TSCA reform is a big deal for the States. Last year, the 
Environmental Council of the States unanimously passed a 
resolution calling for TSCA reform, and that represents the 
environmental agencies of all the States across the Country. I 
don't believe we have ever seen such broad agreement that TSCA 
needs to be fixed, whether your aim is to protect public health 
or the environment, or to have a more consistent, predictable 
playing field for businesses across the States. The solution to 
all these things I think is modernizing TSCA.
    Senator Lautenberg. Your full statement will be included in 
the record, so please forgive me because we want to move 
quickly.
    Mr. Sturdevant. I was done and I appreciate the 
opportunity.
    Senator Lautenberg. Your testimony was excellent to this 
point. We look forward to having it in the record.
    [The prepared statement of Mr. Sturdevant follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Ms. Brody, welcome.

  STATEMENT OF CHARLOTTE BRODY, DIRECTOR OF CHEMICALS, PUBLIC 
         HEALTH AND GREEN CHEMISTRY, BLUEGREEN ALLIANCE

    Ms. Brody. Chairman Lautenberg, Ranking Member Inhofe and 
Members of the Committee, thank you for the opportunity to 
appear before you. I am Charlotte Brody, a registered nurse, a 
mother, and the Director Chemicals, Public Health and Green 
Chemistry for the BlueGreen Alliance, a unique partnership of 
11 labor unions and four environmental organizations.
    We bring together 15 million Americans in pursuit of good 
jobs, a clean environment, and a green economy. We support the 
passage of the Safe Chemicals Act because it can create some of 
the middle-class manufacturing jobs that our Country so 
desperately needs. Between 1992 and 2010, more than 300,000 
chemical manufacturing jobs disappeared in the United States. 
Employment feel 38 percent in the chemical industry at a time 
when all manufacturing declined by 24 percent.
    Among the union partners of the BlueGreen Alliance, the 
steelworkers represent the majority of organized workers in the 
chemical industry. Two other BlueGreen Alliance union partners 
also include some chemicals workers in their ranks. These 
unions and their members depend upon the existence of an 
American chemical industry. We need more Americans making 
chemicals and more people using chemicals made in America.
    We support the Safe Chemicals Act because we believe it 
will spur innovation and the invention of a new generation of 
safer chemicals that can be produced in the United States.
    I started practicing as a registered nurse around the time 
that TSCA became law. If I had practiced nursing the way I did 
then, I would be in prison for gross negligence and 
malpractice. That is how much as have learned about disease and 
treatment since then.
    What have we learned about human disease and chemicals? Let 
me just use the example of Agent Orange. Decades ago, I worked 
with young soldiers coming back from Vietnam. Those who had 
been exposed to Agent Orange were informed that their skin 
rash, core acne, was the only problem they would have from 
their exposure. That is what the science told us then. But over 
the last 40 years, new knowledge keeps showing us how wrong we 
were.
    Now, Vietnam veterans who were exposed to Agent Orange, 
even those who didn't have the skin rash, can be compensated 
for one kind of leukemia, two kinds of lymphoma, four other 
kinds of cancer, as well as diabetes, a type of heart disease 
and Parkinson's disease. The V.A. also recognizes as 
compensable spina bifida, a defect of the developing fetus that 
results in incomplete closure of the spine in the children of 
Vietnam veterans born decades later. One chemical; so many 
diseases, including in children born decades later.
    Forty years ago, we simply didn't understand that chemicals 
could do that. Allowing our Nation's chemical management system 
to remain lost in the 1970's is its own form of negligence. The 
punishment for this negligence is cancer, birth defects, 
infertility, asthma, and nervous system disorders. But the 
sentence is being doled our indiscriminately to workers, babies 
in utero, the people who live at the fence-line of chemical 
plants, and millions of other chronically ill Americans, 
including people each of you were sent here to represent.
    The Safe Chemicals Act would modernize TSCA to reflect what 
we have learned about chemicals and human health since the 
1970's. The bill's safety standard of reasonable certainty of 
no harm from aggregate exposure captures the way good science 
works and underscores the legislation's intent to make 
chemicals safe.
    Especially important for the members of the BlueGreen 
Alliance is that workers are identified as part of the 
vulnerable populations protected under that standard. The 
prioritization system and tiered use of data do a good job of 
tackling the huge problems created by decades of unregulated 
chemicals and starting to solve that problem with a worst-first 
approach.
    I represented the BlueGreen Alliance in the stakeholder 
process that Senators Inhofe and Lautenberg co-hosted this year 
and I comment both of you and your staffs for creating a 
careful, reasoned and reasonable dialog.
    I was trained as an OB/GYN nurse and I still think like a 
nurse. I know that the Senate has become a deeply partisan 
place and the proposal that would give the EPA more power to 
protect are not popular in every office. But the Safe Chemicals 
Act is fundamentally not about politics. It is about mercury in 
breast milk. It is about phthalates in newborn babies cord 
blood. And it is about the creation of new set of American 
manufacturing jobs making chemicals that are 21st century safe. 
Doing nothing is a negligent act.
    Thank you.
    [The prepared statement of Ms. Brody follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thanks very much.
    Mr. Dooley, we look forward to hearing your testimony.

STATEMENT OF CAL DOOLEY, PRESIDENT AND CEO, AMERICAN CHEMISTRY 
                            COUNCIL

    Mr. Dooley. Thank you for the opportunity to testify on 
behalf of the American Chemistry Council, our member companies 
and their nearly 800,000 employees about the need to modernize 
the Federal system that regulates chemicals. We appreciate the 
efforts of Senators Lautenberg, Inhofe and other Members of 
this Committee, and we appreciate the chance to discuss our 
views about the Safe Chemicals Act.
    As I told this Committee in February, ACC strongly supports 
efforts to reform the 35 year old Toxic Substance Control Act. 
Over the years, public confidence in TSCA has diminished, 
contributing to misperceptions about the safety of chemicals, 
ill-conceived State laws, unnecessary product de-selections, 
and baseless litigation. Safety is a top priority of our Member 
companies. We need an effective and reliable chemical 
regulatory system that will instill in policymakers, our 
business partners, and the public the same level of confidence 
in the products that we have.
    Over 2 years ago, ACC released 10 principles for 
modernizing TSCA. These principles created a road map to a 
modern chemical regulatory system that will protect public 
health and the environment, while preserving the ability of 
American chemicals companies to drive innovation, grow jobs, 
and compete in the global marketplace.
    In recent months, ACC and other stakeholders have engaged 
with bipartisan Committee staff to discuss our respective 
positions about legislation to update TSCA. We appreciate and 
would like to commend Ben Dunham from Senator Lautenberg's 
staff, and Dimitri Karakitsos from Senator Inhofe's staff for 
their professional management of these discussions.
    Unfortunately, though, today we are discussing a bill that 
remains very similar to the bill that was introduced in 2010, 
which we consider unworkable. As we discussed during that 
process, there are several fundamental flaws in the 
legislation.
    No. 1, the safety standard. The bill's standard for 
reasonable certainty of no harm from aggregate exposure for all 
chemicals would be virtually impossible to meet. If EPA were 
required by TSCA to consider the aggregate exposure to 
substances from every industrial, commercial and consumer 
product use of a chemical substance, regulatory paralysis would 
ensue.
    No. 2, new chemicals. There is a broad consensus even among 
TSCA critics that the program to evaluate new chemicals is 
working. In spite of this, the legislation would prescribe 
significant new data requirements for all new chemicals before 
they could come to market. It would also extend EPA's time to 
evaluate this data, keeping these chemistries in a State of 
limbo.
    If EPA is unable to complete its work in a timely manner, 
and this is an agency that is known to struggle with deadlines, 
the chemical would effectively be barred from entering the 
market. Manufacturers are certain to seek more manageable 
regulatory environments and produce new chemicals, including 
green chemistry developments and other potentially 
revolutionary new products, in other countries to avoid 
prohibitive costs and uncertainty.
    No. 3, minimum data-sets. The bill would create an enormous 
burden on EPA and on the manufacturers, with little benefit, by 
requiring a minimum data-set for all chemicals. Instead, EPA 
should collect data that is needed on specific types and 
classes of chemicals, as well as to take advantage of the 
massive amount of data that the agency already has access to.
    No. 4, prioritization. The bill's prioritization proposal 
lacks rigorous criteria and makes no mention of integrating 
current knowledge about hazards, risk and exposure, three 
factors that are critical to informed regulatory decisions. ACC 
recently proposed a transparent and scientifically sound 
prioritization process to determine which chemicals should 
receive full safety assessments, so EPA can focus its resources 
where they are most needed. We believe our prioritization 
proposal would be more effective than what has been proposed in 
S. 847 and have the details in our written statement.
    Reform of TSCA is an important priority, but one that must 
be done right. Chemistry will be the source of clean energy, 
improved infrastructure, efficient transportation, medical 
advancement, and a strong defense, among a lot of other 
applications. An ill-conceived regulatory system such as that 
which would be created by S. 847 would undermine America's 
ability to develop and produce these transformational 
technologies and would put the jobs of today and tomorrow at 
risk.
    Even though S. 847 is not the answer, ACC and the industry 
remain fully committed to TSCA reform. We believe we can 
develop legislation that will give consumers confidence, that 
learns from the success and mis-steps of reforms undertaken by 
other countries, and that fosters innovation and job creation.
    Thank you for the chance to express our views on this 
critical subject and we look forward to continued collaboration 
on this issue.
    [The prepared statement of Mr. Dooley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thanks very much, Mr. Dooley.
    Mr. Matthews, I'd like to hear from you.

   STATEMENT OF ROBERT MATTHEWS, COUNSEL, CONSUMER SPECIALTY 
                      PRODUCTS ASSOCIATION

    Mr. Matthews. Thank you, Senator. My name is Bob Matthews. 
I am with McKenna Long & Aldridge, where I have the privilege 
to serve as counsel for CSPA. Indeed, it is a privilege to 
testify on their behalf before this Committee.
    I want to make it clear, I think it already is, that CSPA 
supports TSCA modernization and it does so for several reasons. 
I will list three of them.
    First, as has been echoed by several of the Senators in 
their comments, there is an erosion of public confidence, and 
that comes back to CSPA more than most industries because we 
are the branded companies. It is our products that are on 
retail shelves. It is our products which are in all of our 
homes, in our kitchens in our bathrooms and so on. And so when 
consumers are not confident about chemicals in their products, 
we feel that directly.
    Second, we think that the Federal Government should 
reestablish its role as the primary source of chemical 
management regulation in this Country. I echo comments 
previously stated in that regard.
    Third, we think there is an opportunity for the United 
States to reestablish its global leadership in chemical 
management. A chemical management system should be based on 
risk-based analysis of chemicals and establishing standards on 
the basis of risk should not be limited to considerations only 
of hazard, as we have seen in other jurisdictions.
    I do want to say a word about the process that we have been 
involved in, and we have been involved in multiple stakeholder 
discussions, including not the least of which is the process 
that Senators Lautenberg and Inhofe have led and directed. We 
appreciate that. We think those discussions have been positive 
and constructive. We salute your staffs who have done an 
excellent job in moving that process along. They are very good 
at what they do.
    And we have had similar processes with the NGO's. Richard 
Denison to my left and others from the NGO community have 
reached out to us and we to them and productive discussions are 
going on there as well.
    We aren't there, Senator, I must say. We are trying hard. 
We have moved. They have moved. And the key to those 
discussions has been, and I think it is a word, I apologize if 
I forgot who used it, but one of the Senators used it this 
morning. The key is to find solutions. And to do that, we have 
to understand what is the Safe Chemicals Act? What are its 
goals? And are there, where we have problems or we have 
concerns about the way it is written, are there alternative 
approaches that can solve those same problems and achieve those 
same goals?
    In that spirit, those discussions have been productive and 
I believe we have made progress. We still have a ways to go, 
and that is clear.
    I want to talk about two issues that our trade association, 
our member companies have focused on in particular. And the 
first falls directly out of the notion that this should be a 
risk-based system. Well, if you are going to do risk analysis, 
you need more than just hazard data. You need to understand how 
those chemicals are being used, where they are being used, and 
what exposures are being created by those uses. That 
information comes right back to our industry because we are the 
companies who are placing those products with those substances 
on the marketplace.
    So the issue of use and exposure information is one that 
CSPA understands must be part of a modern TSCA, and indeed, we 
have for several years promoted the idea that this industry 
should come forward with additional information. And we have 
said so in our position papers and in the discussions with the 
stakeholders and with Senate Staff, we made clear that we are 
prepared to step forward under new legislation. And indeed, we 
have very specific proposals in that regard that we have placed 
on the table.
    And the last issue I want to briefly address, Senators, is 
sort of the natural fallout from that last point, which is we 
understand we need to come forward with substantial additional 
information under a modern TSCA. Inevitably, however, when we 
do that, some of that information will be confidential. And the 
protection of confidential information is critical to this 
industry.
    The examples we typically throw around, I am not smarter 
than these examples, so I will just use them: Coke and its 
formula; WD-40; PostIt Notes. Those formulas have been held 
proprietary by those companies who developed those formulas for 
decades. In the case of Coke, I think it is probably a century 
by now. It is just as important to those companies today as it 
was then to protect those interests.
    So we are concerned that there are not enough rigorous 
protections in the proposed legislation. Here again, however, 
we think there are ways to come at that issue where we can find 
solutions and provide the right balance on both the submission 
of information to the agency and the protection of that 
information to protect the interests of our member companies.
    I will be pleased to discuss any of those issues further 
during question and answer.
    Thank you.
    [The prepared statement of Mr. Matthews follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thanks very much.
    Mr. Denison, we look forward to hearing from you now.

 STATEMENT OF RICHARD DENISON, SENIOR SCIENTIST, ENVIRONMENTAL 
   DEFENSE FUND; SAFER CHEMICALS, HEALTHY FAMILIES COALITION

    Mr. Denison. Thank you, Mr. Chairman, Ranking Member 
Inhofe. I am testifying today on behalf of both Environmental 
Defense Fund and the Safer Chemicals Healthy Families 
Coalition, a broad coalition of over 300 health, environmental 
and environmental justice organizations and leading businesses 
that represent more than 11 million Americans, including the 
very young voices you heard in the back of the room a bit 
earlier.
    Mounting evidence of problems calls into question the 
safety of thousands of chemicals that we encounter in our 
everyday lives. Here are but a few examples of these problems.
    Scientific researchers increasingly link chemical exposures 
to serious diseases that are become more prevalent, including 
childhood leukemia and brain cancers, which have risen more 
than 20 percent since 1975; and fertility problems, which now 
affect 40 percent more women than they did in 1982.
    Eighty percent of all new chemicals reviewed by EPA are 
reviewed without access to any health or environmental 
information. That is because the U.S. is virtually the only 
developed Country in the world that does not require a minimum 
set of safety information to accompany a new chemical.
    Residents in low-income communities and communities of 
color like Mossville, Louisiana, which is surrounded by 14 
different chemicals plants, are routinely exposed to far higher 
levels of deadly chemicals like dioxin, vinyl chloride and 
benzine than is the general population. And yet such 
disproportionate impacts are not required to be accounted for 
when the government assesses the risks of those chemicals.
    These problems can be ascribed to the failures of TSCA. 
They would also be ameliorated by the adoption of the Safe 
Chemicals Act. It provides a framework for a systematic 
solution to a set of problems that will only be addressed, if 
at all, through piecemeal actions. We support the legislation 
because it strike a balance between the need to fully protect 
public health, including the most vulnerable among us, with the 
need to encourage innovation and safer chemicals, and the needs 
of the chemicals marketplace and consumers and the public for 
better information, with the need to protect legitimate 
confidential information.
    Since the Act was first introduced in 2010, it has evolved 
substantially to reflect input from a variety of stakeholders. 
Changes have been made that both boost its health protections 
and make it more workable and ease its implementation. I give a 
number of examples of those positive changes in my written 
testimony. I also detail how the reforms of the Safe Chemicals 
Act would fix the major flaws of TSCA.
    But let me now turn and emphasize in my oral statement the 
opportunity we see to capitalize on what is a truly remarkable 
consensus among a broad array of stakeholders that Congress 
must reform this law. The need is urgent because it is not only 
failing to provide health protections, it is failing to provide 
industry with a stable environment in which to conduct its 
business, and its customers with confidence in the safety of 
its products.
    We recognize that reform must meet the needs of a variety 
of stakeholders, and that is why our coalition has been deeply 
engaged in dialog with the industry. We have ongoing dialogs 
with the American Chemistry Council, with the Consumer 
Specialty Products Association and its members. We have met for 
many days over the past 6 months to narrow our differences. 
Eight members of our coalition traveled to the headquarters of 
both the Dow Chemical Company and Procter and Gamble to hear 
first-hand about their businesses and understand their 
perspectives for TSCA reform.
    We strongly have endorsed and support the bipartisan 
leadership shown by Chairman Lautenberg and Ranking Member 
Inhofe to convene a process of stakeholders to explore how we 
can move this bill forward in a way that is truly bipartisan.
    Let me say that while the details of many of the dialogs we 
are involved in are confidential, we have made substantial 
progress. In our dialog with CSPA, we are on the cusp of 
agreeing to recommendations for legislation to deal with the 
issues that Bob just mentioned: confidential business 
information and reporting of robust information on the use of 
chemicals.
    Based on my deep involvement in these dialogs, I believe 
there is not a single issue that we cannot find the solution 
to. EDF and our Coalition would welcome the opportunity to 
share the bridging concepts we have identified, along with the 
companies with whom we have engaged.
    We urge the Members of this Committee to act now to forge 
and advance bipartisan reform legislation in this Congress. It 
represents a once-in-a-generation opportunity to create a new 
chemical management system that sustains our health, our 
environment and our economy.
    Thank you very much.
    [The prepared statement of Mr. Denison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. Thanks very much, Mr. Denison.
    And I thank each one of you.
    It is interesting to hear some divergent views, not 
unexpected. This is a complicated subject, but it is I think 
less than help to solve our problems as to look at 
unenforceability, that kind of thing. I mean, I believe, and it 
was summarized by a couple of you, and that it is the number of 
people who have expressed concern, the number of conditions 
that violate our sense of what is right in terms of our 
responsibilities.
    There is no doubt in my mind and minds of responsible 
scientific units, scientific bodies that there are problems 
lurking out there. And in the design for us to try to deal with 
those, does a single child's endangerment require a bill passed 
in here, a piece of legislation? Probably not, but when you 
start to see it all over the Country and the statistics tell 
you that there are problems with fertility and problems with 
this, and exposure, of course, Ms. Brody, to Vietnam, that is a 
classic in American history and the chemical business.
    But, look, my mission, and I said it earlier, and I think 
that Senator Inhofe and I have set the kind of a platform that 
says say what you want; say what you believe. But keep an open 
ear to what is going on. Keep you eyes open as to what is going 
on with the fright that exists over the condition of children.
    There is one statement that wasn't really a statement. It 
was the child's voice. We loved hearing that. I have 13 
grandchildren.
    So I ask Ms. Brody, the chemical industry employs more than 
70,000 people in my State of New Jersey. I want to protect 
these employees, their jobs and their health. And you are a 
member of the United Steelworkers Union and a representative of 
other unions that work with chemicals. How many people are in 
the steelworkers union?
    Ms. Brody. The steelworkers union has about 1 million 
members right now.
    Senator Lautenberg. And the total membership of your allied 
groups?
    Ms. Brody. Between the 11 unions and four environmental 
organizations, 15 million people all together.
    Senator Lautenberg. How might reforming TSCA, as we 
propose, affect employment in these industries?
    Ms. Brody. Earlier this year, Senator Lautenberg, we did a 
study of the economic benefits of a green chemical industry in 
the United States. And we commissioned the University of 
Massachusetts-Amherst to really tell us what was going on in 
the chemical industry and what could TSCA reform do positively 
or negatively to impact that industry.
    Because first and foremost, we need each of our members 
working and we need to do something about the economic crisis 
in the United States. And what we found is that unemployment in 
the chemical industry didn't start to go down during the great 
recession of 2008, but actually has been dropping since 1992. 
So that 38 percent of the jobs that used to be there aren't 
there anymore, and that this happened while the chemical 
industry stayed profitable at 4 percent per year during that 
entire time.
    And that what had been going on is that the chemical 
industry had stayed profitable by cutting costs, by cutting 
research and development costs so that they were less than half 
of industry overall, and by cutting labor costs and putting 
people out of work.
    And the TSCA reform actually, by moving us from a time when 
the smart money in the chemical industry is on making the stuff 
you were making 40 years ago, to a new day when making safer 
chemicals lets you create more market share; could actually put 
people back to work and turn those numbers around.
    Just one point that we noticed in this, the only part of 
the American chemical industry that has been growing jobs and 
growing in profitability is the most regulated part, the part 
of pharmaceutical chemicals, including a lot of people working 
in your State who actually are employing more people every year 
in the one part of the industry where companies have to prove 
that their products are safe before they are put on the market.
    Senator Lautenberg. Thank you.
    Mr. Dooley, over the summer, the American Chemistry Council 
suggested alternative language for one small, but important, 
part of the Safe Chemicals Act. Providing that kind of specific 
proposal increases the odds that we can find a bipartisan 
middle ground. Now, are you willing to commit to providing 
specific alternatives to all the other sections of the Safe 
Chemicals Act that you strongly criticized?
    Mr. Dooley. We have been involved in constructive 
discussions through the process that was sponsored with you, as 
well as with other stakeholders. And I think that we have seen 
progress at a very high level in terms of general concepts on a 
host of issues.
    But unfortunately, we think that this is an issue of such 
complexity that it is going to take a significant period of 
time to really resolve all those very, very complex and 
difficult issues. And we have provided the example, one of the 
most recent examples was attached to our testimony, was I think 
the most comprehensive proposal for a prioritization process 
that we submitted to the Committee, as well as to EPA.
    We are committed to do that on a host of issues.
    Senator Lautenberg. Yes, but again, will you provide your 
specific alternatives?
    Did you hear my question?
    Mr. Dooley. Yes, I did. We will provide the information and 
our ideas in the appropriate fashion.
    Senator Lautenberg. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have just two questions, one that I am going to ask Mr. 
Dooley. It is nice to be with you again. You have a lot of 
people up here with whom you have served in the past.
    I am concerned, and you have addressed this, but not 
thoroughly enough, about how this could adversely affect new 
products. That is what I am concerned about. I have always 
taken great pride that we try to be ahead of the rest of the 
world, and could you address that for me?
    Mr. Dooley. I would be delighted to. I would like to use 
maybe our greatest concern about the underlying bill, with the 
safety standard which would require us to provide with a 
reasonable certainty and no harm a chemical from all aggregate 
exposures.
    Basically, what the intent of this legislation is to adopt 
the same policy and procedures that we use for pesticides, 
where you actually have a risk cup. I was a farmer prior to 
coming to Congress. I dealt with pesticides. And when you 
registered a pesticide, you had a limited number of 
applications on a limited number of crops for a product that 
was going to be biologically active and try to kill either a 
bug or a weed. You could define those pathways of exposure.
    That process does not work on industrial chemicals that 
have thousands and thousands of pathways of exposure. And I 
will provide this to the Committee at an appropriate time, but 
we have a chlorine tree here, which shows the hundreds and 
hundreds of different products that chlorine is used in. Now, 
if you use the proposal of the safety standard that is under 
this legislation, it would require anyone that was going to be 
making a new products or a new mixture that had chlorine in it, 
they would have to do an aggregate assessment of the exposures 
resulting from not just their new product, but from all uses in 
commerce today.
    And so if you think about it for a minute, chlorine is in 
this water. It is an integral part of trying to make sure it is 
pure. Chlorine is in the varnish that is on your desk. Chlorine 
is in the semiconductors that are in your phone.
    So does chlorine, if you had this risk cup perspective, 
does the chlorine that is in the water, does it fill it up this 
much? In the ink, does it fill it up this much? In the 
semiconductors, does it fill it up this much? Maybe in the 
batteries in your pacemaker, does it take it up to the top?
    And so you have a new innovative company out there that has 
a new application for chlorine that might be the cutting edge 
technology that is going to ensure that the U.S. manufacturers 
are going to be the lead in solar cell technology, yet the risk 
cup is full. And so where do they go? How do they ensure that 
they can get approval from EPA? How can even a startup company 
that has limited resources and capacity, how do they even have 
the ability to assess the aggregate exposure?
    This bill with this safety standard is a prescription to 
deny the U.S. manufacturers' ability to be at the forefront of 
innovation and creating jobs.
    Senator Inhofe. Thank you, Mr. Dooley. This might be my 
birthday, but I don't have a pacemaker.
    [Laughter.]
    Senator Inhofe. One last question, a little bit over our 
time, but I just want to ask Mr. Matthews, because I have heard 
it stated very times that States are ill-equipped to deal with 
these things. And the term that has been used is ``a complex 
maze of regulations across the Country.'`
    Could you address that?
    Mr. Matthews. I would be pleased to do that. I think 
Senator Gillibrand indicated numbers I hadn't even seen before. 
There were something like 25 States that have adopted 80 
different chemical management laws over the last 9 years. And I 
think we heard testimony from Mr. Sturdevant that that is a 
difficult issue for States to take on because they don't 
necessarily have all the tools to address the toxicity of 
chemicals and to understand the use and exposure information 
that I referred to.
    And that this would be best done at the Federal level where 
we can marshal resources one time in this Country, not 
duplicate that, and assure that at whatever the standard 
actually is, we have uniformity in that regard so that a 
company like a S.C. Johnson or a Procter and Gamble, which has 
products in all the retail shelves and in all of our homes, can 
have one 50-State strategy, instead of a strategy across 
multiple States, now 25 and growing, for formulation, for 
labeling and so on.
    So I think on both sides of the issue, it is both 
unburdening the States in a very difficult area. It is reducing 
the resources in this Country that are being applied to doing 
that from potentially 50 down to one Federal Government role. 
And it is industry that will be able to, in our industry in 
particular, to market their products knowing that if they meet 
the Federal standard, they will have provided a safe product to 
the marketplace.
    Senator Lautenberg. Senator Cardin, please.
    Senator Cardin. Well, first, Senator Lautenberg, let me 
thank you for your leadership on this issue. You have been 
incredible in pointing out the risk factors and putting a face 
on it as to the individuals who are impacted by what we do, by 
our failure to provide adequate protection. So I thank you very 
much and I thank you for holding this hearing.
    Mr. Dooley, it is nice to see you again. I respect very 
much your views. I was interested in your oral response, but I 
read your written statement also where you point out that the 
Toxic Substance Control Act needs to be changed. I looked at 
what happened in my own State of Maryland with BPA, where 
because of the inability of the national government to provide 
safety standards, the State had to act.
    It is not the ideal circumstance. The ideal circumstance is 
to have the Federal Government provide the blanket protection 
we need for the Nation, allow States to be able to push the 
envelope if they can, but to know that there is the backstop at 
the national level. We don't have that today.
    So I very much value your judgment, and I want to followup 
on the Chairman's point, that we need to work together. We need 
to make sure that we encourage innovation. I am all for that. 
But I was disappointed by your response to Chairman Lautenberg 
because you said it could take a lot of time. Too many people 
are affected by this. We have to get this moving. We can't say 
let's wait another decade for a study to come back and then 
determine what we should be doing at the national level.
    This is a safety issue. And we need your help and we don't 
have time. And we need to do this in a bipartisan manner. I 
agree with that. But you have the expertise, but you also have 
the credibility so that we could get something done sooner 
rather than later that will help the people of this Country and 
help job growth in this Country.
    So I just encourage you to have a greater sense of urgency 
than at least I interpreted from your reply.
    Mr. Dooley. Well, I guess, Senator, I would respond is that 
I think it is unfortunate that we are having a hearing on this 
legislation today; a bill that is very similar to that which 
was introduced 2 years ago; a bill that we have been involved 
in extensive discussions with Senator Lautenberg and his staff, 
explaining what our concerns and objections were; that we have 
had extensive conversations with the NGO community, telling 
them what our concerns and objections were, as well as some 
ideas in terms of how they can improve it.
    And when we are faced with a situation, if we would have 
seen maybe another iteration that showed some progress, the 
tenor of our comments might be a lot different.
    Senator Cardin. And I would point out, if we had your bill 
before us so that we could take a look at it and compare it, I 
think it would be more constructive. The Chairman challenged 
you to come forward with recommendations. It is not one-sided 
here.
    Mr. Dooley. And we have provided significant 
recommendations. I would be delighted to meet with you and your 
staff and explain. And in terms of the safety standard that you 
have proposed here that we object to, we have an alternative.
    Senator Cardin. The question is this. Here is the point. 
You say in your statement that the current law needs to be 
reformed. If the industry truly believes that, then you need to 
come forward with what you believe is necessary, and respond 
point by point to what Senator Lautenberg has put in his bill 
so that we can sit down here and try to make some sense out of 
this.
    But if your objective is to defeat legislation, if that is 
your objective, then I understand what you are doing. But if 
your objective is to get legislation enacted, I don't 
understand what you are doing.
    Mr. Dooley. Our objective is to see the modernization of 
TSCA in a way that provides the appropriate level of safety, 
ensuring the safety of the chemicals that are used for their 
intended purposes that are in commerce. And ensuring that we 
can do so in a manner that allows this U.S. chemical industry 
to continue to be at the forefront of innovation.
    Senator Cardin. I accept that.
    Mr. Dooley. They are not mutually exclusive.
    Senator Cardin. I accept that. Then I just urge you to be 
more forthcoming on your recommendations so that we can try to 
get to where the real problems are, and try to get the ability 
at the national level to provide the safety standards that 
allow innovation, which is what the industry needs and what the 
American public needs.
    That is why I just urge you to be more open so that we can 
get answers to the issues that have been raised. We don't want 
to continue under the current system that puts such a burden on 
States to act because of the failure of the Federal Government 
to provide the basic protection that is needed.
    Mr. Dooley. The only thing I will conclude, this is my last 
comment. Sometimes I would say we have been providing answer. 
We have been providing solutions to what the industry likes and 
would like to see, which we think would be appropriate.
    Unfortunately, they are not the answers that some of the 
authors and some of the proponents of the legislation, 
supporters of the legislation that we are testifying on today 
want to hear. And so just because they are not embodied in this 
legislation doesn't mean that this industry hasn't been 
offering what we think are concrete solutions and proposals.
    Senator Cardin. I appreciate that. I will make one final 
observation here. It is clear in this political environment, 
the way we get legislation enacted is for both sides to come 
together. This Committee has a history of working together on 
issues. We just passed out a surface transportation bill by an 
18 to zero vote. It contains some things in there I don't like. 
It contains some things in there Senator Crapo doesn't 
particularly like, but we were able to get it done.
    If there is a good-faith effort to get legislation enacted, 
then participate with us. If you objective is to make sure 
nothing gets through this Congress, then I understand what you 
are saying. But be straight with us as to what your objective 
is.
    Your testimony leads me to believe that you want to see 
reform passed by the U.S. Congress and signed into law. If that 
is the case, I don't know where you are on this issue. I know 
Senator Lautenberg's bill. I have read Senator Lautenberg's 
bill. I would welcome specifics, rather than just saying no, 
this doesn't work; this doesn't work; this doesn't work. What 
works?
    And I will just conclude by saying, Ms. Brody, I 
appreciated your response to say that regulation does create 
jobs if we do it in the right way. Thank you for that point.
    Senator Lautenberg. Thanks very much.
    Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman.
    Again, I want to thank you for holding this hearing today, 
and specifically, I want to convey my thanks to you for being 
willing to work with us in a bipartisan fashion.
    Senator Cardin is right. We have an incredibly toxic 
political environment here in Congress right now, but this 
Committee is one of the committees where that brutal toxicity 
has not yet been able to rear its head. We have some fights and 
obviously we have some different points of view, but we have, I 
think, a good-faith intention on the parts of all of the 
Members on this Committee to try to find the common ground and 
build the consensus to make progress in the ways that will 
benefit our Country on all of these issues.
    And I just want to relay that message to all of the 
stakeholders on this issue. I believe that the Members of this 
Committee are sincere. And I will say to my colleagues on the 
Committee, I think that the stakeholders whom I have worked 
with are sincere and want to find a solution to the problems 
that we face. And so I will tell you, that is the only way that 
we will be able to move forward, particularly in this political 
climate.
    So I just wanted to make that comment. I wish Senator 
Inhofe was here so I, too, could wish him happy birthday, but I 
will do that privately as I get a chance to do so a little bit 
later.
    With regard to the questions I have, I think I will start, 
Mr. Matthews, with you. TSCA was designed to be a chemical 
management statute, and we are moving into a focus now on 
approaching it in the light of protecting workers and first 
responders and so forth, at least in one context of the 
discussion.
    Could you discuss those dynamics as to how do we try to 
move forward and achieve that re-focus?
    Mr. Matthews. Yes, Senator, thank you.
    Yes, I agree with the premise that TSCA is a chemical 
management statute. It is worth reflecting on the fact that 
there are other statutes and other agencies besides EPA who 
have a role in some of the issues which are being or would 
propose to be addressed through the Safe Chemicals Act, and 
that is an area of concern that there would be overlapping and 
inconsistencies.
    It is a big job to define the right standard, to run 
chemicals through the criteria that would be adopted for 
safety, and to define what a safe use of those chemicals is.
    And Senator, you may have been absent when I was talking 
about what we think is needed here is substantial additional 
use and exposure information, and to some extent that will 
cover some of the areas that you have identified of concern.
    So I don't think there is an inconsistency in the notion 
that this law can and perhaps should provide enough data so 
that there is a fuller picture of where it is being used, how 
it is being used, and the exposures that are being created.
    But at some point, I would say, Senator, that the line has 
to be drawn where while that is true, if we start to regulate 
workplace exposures we are going to run into conflict with 
OSHA, and that is probably, I will say in my judgment, more 
trouble than it is worth. I think OSHA is a robust statute and 
can and is being administered appropriately.
    One other specific you mentioned I think was emergency 
workers. And I will say this, we have discussed that issue. It 
is a little down in the weeds, if I may say that, but it is an 
important issue, but it is below the level of trying to find 
common ground. That is not the driver.
    But it has come up, for example, in the context of 
confidential business information. And in that context, we have 
talked about there will be circumstances where speed and the 
disclosure of information is critical, and are there ways in 
which that can be accomplished while, again, still protecting 
proprietary considerations.
    And I think we have begun to identify some of those 
alternatives. And again, I would use the word, as other 
Senators have here, it is all about finding solutions to the 
problem which we mutually agree must be addressed through this 
law.
    Senator Crapo. Well, thank you. And let me just raise 
another issue. It kind of relates to the unintended 
consequences issue, but right now we are seeing, in my opinion, 
in the Federal Government, at the Federal level across many 
different industries and issues, an explosion of regulatory 
activity.
    Now, I understand that there are different points of view 
about the impact of that activity on the economy and on safety 
and soundness and other factors. One concern that I have is 
that as we move forward in looking at what the proper statutory 
and then ultimately regulatory climate should be, is that we 
have a multiplicity of agencies with jurisdiction over same or 
similar activities.
    Not in this area, but we have been doing a lot of activity 
in the financial arena recently in terms of regulatory 
activity, and there are some companies who deal with as many as 
five or six or seven regulators. And in some cases, they 
actually have different definitions of the same kinds of 
activities and different requirements on the same activities 
that are impossible to meet. In other words, they can't meet 
one without failing to meet the other. And we run into these 
inconsistencies in the regulatory world.
    I don't know the answer to this question, but do we face 
that kind of risk here in terms of the potential for not 
identifying accurately where the jurisdictional boundaries are 
between different agencies?
    Mr. Matthews. Senator, if that question is directed to me, 
I would be pleased to say yes, we do face that. I think earlier 
testimony about the States stepping into the vacuum and 
creating many different rules for similar chemicals and similar 
products is one example of that.
    I think at the Federal level, as we just mentioned, the 
notion that a substance may be used in different products and 
suddenly that implicates OSHA; that implicates FDA 
considerations and other agencies. It is a reality. There is no 
perfect solution to that. But I do think that care needs to be 
taken in adopting a reform TSCA that we don't, with respect, 
that Congress does not go too far in creating additional 
conflicts where, again coming back to the purpose and goal, 
this is chemical management legislation and I think that that 
needs to remain the focus.
    But I must underscore again, at the risk of repetition, 
that the information that will come to the agency will be 
substantial; will have implications elsewhere; and certainly 
this law as drafted, if I recall, permits under defined 
circumstances the sharing of that information with other 
agencies which have the appropriate authorities to address some 
of those other issues.
    So I do agree that this is a consideration and we just need 
to keep our eye on that ball as we go forward.
    Senator Crapo. Thank you. I know some of the others may 
want to respond to this, but my time is up, so maybe in a next 
round I can get further into that.
    Senator Lautenberg. Thanks very much.
    Senator Udall?
    Senator Udall. Thank you, Senator Lautenberg. And I thank 
you for holding this hearing and know that you are always 
looking out for your children and grandchildren and concerned 
about these kinds of impacts, chemicals on them; and also 
looking out for consumers. So I appreciate your laying a bill 
out there.
    I also am concerned about this matter that was brought by 
first the Chairman and then by Senator Cardin. And I think 
there is definitely an issue of urgency. Maybe I should just 
approach this a little different way because I think the thrust 
of the question is still the same, though.
    While EPA maintains a list of chemicals under TSCA, which 
is nearly 80,000 chemicals that are out there, only 200 have 
ever been examined under the Act and only five banned. Testing 
by the Centers for Disease Control and Prevention has found 
more than 212 industrial chemicals in the bodies of most 
Americans.
    And there have been a lot of television programs. I 
remember one Bill Moyers did where he went and got his blood 
tested and he said, ``I'm walking around with all these 
chemicals and I am a guinea pig.'` And I think people have seen 
that and they know that is out there and they are concerned 
about that.
    And of these 212 industrial chemicals in the bodies of most 
Americans, including at least six known carcinogens and dozens 
have been linked to cancer, birth defects and other adverse 
health effects, GAO has called TSCA a :high-risk area of law 
ripe for reform.'`
    So my question is, Mr. Dooley and Mr. Matthews, are you 
advocating for our body burden of chemicals to go up over time? 
So are you saying 10 years from now, instead of 212, we should 
have 400? It is kind of a simple question, yes or no.
    Are you pushing for, because that is what the urgency is 
here is to try to say we are in an unacceptable situation. 
There is I think some suggestion here that we may mark up this 
bill. If you are marking up a bill, you want to see language. 
And I think it is very urgent that we see something more than 
just criticism of the particular language that is in the bill.
    But please, on the body burden question. That is just a yes 
or no question, Cal.
    Mr. Dooley. It is a no.
    Senator Udall. So you are not advocating for it to go up? 
OK.
    Mr. Dooley. No. The issue, Senator, is that we have to have 
a system in place.
    Senator Udall. And are you concerned about it?
    Mr. Dooley. We are absolutely concerned about it, and we 
think, and that is what we are advocating for the modernization 
of TSCA. There has to be a system in place that ensures that we 
can do an evaluation of the safety resulting from a combination 
of evaluating the hazard and exposure of a particular chemical; 
understanding in terms of what it the exposure resulting from 
use of that chemical for its intended purposes; understanding 
at what level and threshold that chemical might pose a risk to 
health and safety.
    And then when we make a determination through the 
regulatory process and EPA having the authority there, they 
determine that this risk of exposure is too high, well, then we 
have to put in place controls. We totally support that. And we 
are doing that today when we are engaged with EPA in submitting 
new chemicals for approval. EPA has a lot of authority to do 
this today. And we work with them, trying to ensure that we are 
responding appropriately.
    But it is, you know, I will be honest. I take offense when 
anyone would even insinuate that our industry is supporting an 
increase in the body burden of chemicals over a period of time.
    Senator Udall. Well, that is where we are headed right now. 
Where do you think we are headed? Because it has been going up 
year after year. We put TSCA in place in 1976 and what has 
happened since then? TSCA and the regulatory agencies don't 
have the ability. You know that. They do not have the ability 
to pull chemicals off. One of the most dangerous chemicals was 
asbestos. We had a failure to regulate under TSCA. It is a 
carcinogen, outright carcinogen.
    So I don't think you can sit there at the table and say, 
oh, yes, we want to see them pulled off. They are going up and 
up and up.
    Mr. Dooley. There needs to be a process in place, which we 
support, where you would have a scientific evaluation of the 
exposures of the chemical that we have determined that pose a 
safety or environmental risk. There needs to be a process in 
place that ensures that the industry can manage those exposures 
in a fashion that ensures that the threshold of that exposure 
and the amount of those, the body burden of those does not pose 
a health and safety risk.
    Senator Udall. I am really sorry. I have run over time 
here. Mr. Chairman, I wish I could stay and hear more of the 
testimony and hear Senator Carper, who I know is a great 
champion for consumers on this. I am going to have to leave, 
but you need to pursue this bill. We need to mark up this bill. 
We need to move forward with this.
    Thank you.
    Senator Lautenberg. Thanks. And while you are still here, 
Senator Udall, the conclusion from our friend Mr. Dooley, I 
think it is summarized broadly that this is a prescription for 
failure. And when we give it that kind of an umbrella, the sun 
is not going to shine through there, but we will talk more.
    Please, we are anxious to hear from Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I am not going to pick on former Congressman Dooley. His 
reputation in the House was actually somebody who was pretty 
good at working across the aisle and pretty good at coming to 
consensus.
    And I am going to ask you, and then I am going to ask the 
other four witnesses as well, to join in just answering a 
couple of questions. And one of those is what would you say is 
maybe the largest outstanding issue that the environment and 
public health communities and industry need to come together on 
in order to further strengthen this proposal, but to also get 
it passed? At the end of the day, we need to enact something.
    And would you just respond to that? And I will ask our 
other witnesses to do the same.
    Mr. Dooley. I would contend that really the most important 
issue that we need to come to grips on and find a consensus on 
is on the safety standard, is where we contend that the 
reasonable certainty of no harm from aggregate exposures we 
think will lead to paralysis on the regulatory agency. It is 
not conceivable for industry to meet, and so we need to see 
some modification of that for a workable solution.
    Senator Carper. All right. Let me ask Mr. Sturdevant.
    Mr. Sturdevant. I would echo that. I think getting the 
right safety standard that ensures that, A, it has to be a 
safety standard that can be met; but B, just flipping this 
paradigm where we put chemicals out there and then see what 
happens over the course of year, I think moving that up front 
so we know that these chemicals are safe before going into 
commerce is the right thing.
    Senator Carper. All right.
    Ms. Brody.
    Ms. Brody. I agree it is the safety standard. But I have 
been doing this long enough that I remember when the American 
Chemical Council and its previous names was opposed to TSCA 
reform. And it is only under Mr. Dooley that that position has 
changed. So I appreciate the leadership that has created that, 
but I have sat in too many rooms like this where the chemical 
industry said that TSCA was working perfectly well and that all 
chemicals in use were safe.
    So I think the safety standard is a really important 
conversation, but I think we have to actually sit down and say 
if reasonable certainty of no harm from aggregate exposure 
isn't the right standard, what other words give the American 
people what this law is supposed to do, a way of knowing that 
chemicals in use are safe.
    Senator Carper. OK. Thank you for those comments.
    Mr. Matthews.
    Mr. Matthews. Senator, I agree that the safety standard is 
at the heart of it all. I would just add that for this statute 
to work, it has to be, we think, a risk-based approach. And for 
risk-based determinations to be made, the system needs better 
use and exposure information. Our industry has said we 
understand that and we are prepared to come forward and provide 
that information, and we think that will make a substantial 
difference.
    Second, having said that, we are extremely concerned about 
the provisions in the proposed legislation on confidential 
business information. We are concerned that it will be a 
disincentive to innovation; that it sets artificial timelines 
for the expiration of proprietary information that in many 
cases is unrelated to a timeline. And so that, and that are 
other aspects of the CBI issue that concern us.
    And on one related point, I would like to say a word about 
new chemicals. While that is primarily an issue that ACC has 
championed, there is a very direct affect on the downstream 
community. And that is that if they can't innovate, we can't 
innovate. We rely on our suppliers to help us find the right 
products that our customers and consumers are interested in 
buying, and we don't want to stay with the same products that 
have been on the shelves, I think, for the last 40 years was 
the reference.
    And so we echo the concern that the new chemicals program 
if it is working should not be so radically changed as to make 
it a disincentive to develop newer, greener, safer chemicals. 
Those are my thoughts.
    Senator Carper. All right. Well said. Thanks.
    Mr. Denison.
    Mr. Denison. Thank you, Senator. In my view, the most 
important issue is to ensure that a reformed TSCA uses the best 
available science to make decisions about chemicals. Many of 
the issues that are in contention are actually recommendations 
of this Nation's highest scientific body, the National Academy 
of Sciences, that calls on EPA to assess the aggregate risks of 
chemicals, that we are constantly looking at one use of a 
chemical at a time and we are looking at an average population 
exposure, rather than protecting the most vulnerable 
populations that may be more susceptible or more highly 
exposed; and rather than understanding that people are being 
exposed to chemicals from multiple sources.
    I think we have to find a way to make a workable approach 
to dealing with aggregate exposure, because I would agree with 
Mr. Dooley that it is more complicated than it is in the 
pesticide area. But the notion of pretending like we can look 
at one use of a chemical at a time and not look across those 
uses and aggregate it is simply inconsistent with the best 
available science today as it is being even practiced today by 
the USEPA.
    Senator Carper. OK. Thank you all for responding.
    Mr. Chairman, my time is expired, and I don't have time to 
ask this question or at least get answers for it. But I at just 
want to put it on the table and then will followup in writing.
    But over the last couple of years, several nations, I think 
among them Canada, Australia, maybe Korea, China, parts of 
Europe, and some other countries have undertaken reforms of 
their own nation's chemical safety laws. And the question I 
will ask you to answer for the record is: What can we learn 
from them? What should we drill down on and take away from 
those experiences?
    I used to say when I was Governor that some other, whatever 
issue we are working on in Delaware, I used to say some other 
State has solved this issue. They figured it out. They solved 
it. What we have to do is find them and figure out what they 
did. And so I think that might be helpful as well.
    I have a couple of other questions. That is one of them, 
but thank you all very much for coming here. We need to address 
this. We need to find a way to come together. And my hope is 
that under the leadership of our Chairman and Senator Crapo, 
Senator Inhofe and a lot of people's good will, we can do this.
    Senator Lautenberg. Yes, we will keep the record open for 
some time and would ask that anything submitted to you in 
writing, please as prompt as you can, as fully as you can.
    Now, we are pleased to have Senator Whitehouse with us.
    Senator.
    Senator Whitehouse. Thank you, Chairman Lautenberg and 
Ranking Member Crapo. I am delighted to be here with you and I 
appreciate the work that you both have done to try to come 
together on a TSCA reform bill.
    My question is for Mr. Dooley about the American Chemistry 
Council. It is my understanding, correct me if I am wrong, that 
the American Chemistry Council has not yet come up with 
proposed statutory language that would propose the changes that 
you think are necessary; that your contribution so far has been 
more that of a critique of the existing language than a 
proponent of an alternative.
    My specific question is, if I am correct about that, would 
you provide the Committee with a detailed redline of the Safe 
Chemicals Act this year so that we can see specifically what 
your proposal is and have that to work with as we try to move 
forward.
    Mr. Dooley. We would be prepared, as we have been engaged 
in substantive conversations on how we think that we can most 
effectively move forward with a modernization of TSCA. And we 
can offer suggestions in terms of how we think the legislation 
should be constructed.
    Senator Whitehouse. Would you put those suggestions in 
writing in legislative format so we can be specific about them?
    Mr. Dooley. In terms of serving in Congress and now serving 
in the outside world, we obviously have some concerns about 
what is the prerogative of the institution, versus an outside 
entity in terms of responsibility. My view is that it is your 
prerogative and the Committee's and Congress's prerogative in 
terms of actual drafting of legislative language. But we are 
certainly committed to be a partner to help ensure that in your 
construct of that language it would reflect our policy 
priorities would be.
    Senator Whitehouse. This is nobody's first rodeo here, and 
we have all certainly been involved in legislative matters in 
which the private sector has a very specific point of view. 
Indeed, from time to time, we are presented with legislation 
that has actually been drafted by industries.
    So I think the question about the prerogative is one that 
really by the boards and it is really more a matter of 
willingness. And I would urge you to do what you can to try to 
put your desires and wishes into a redline markup format. I 
think that is the most effective way for you to engage. I 
believe you want to be constructive. I think if you don't put 
ideas forward, but are simply sniping from the woods on the 
sides, it doesn't create the image of somebody who is trying to 
be constructive.
    People can say no and move the ball around all day long, 
but it is a positive effort to go through the trouble, as we 
have all discovered when we are drafting legislation, to try to 
put something in writing. And I think it would be an important 
sign of good faith and good will and a desire to make progress 
on the part of the industry if you would reconsider that and 
put something into writing.
    I think it puts you in a much better position and a much 
fairer position, and it lets the other interests who are 
engaged in this discussion have a sense of where you really 
stand and that you are not just kind of in the weeds saying no 
to things. And I don't think that is the place you want to be, 
but I think unless you do that, that is the place where you end 
up being.
    Mr. Dooley. I just think it is kind of interesting that it 
was over a year ago, I guess, that there were a lot of folks 
concerned that we would be working with some Members of 
Congress that we thought would be more aligned with our 
interests and having them introduce a bill that would reflect 
our interests. And I think a lot of folks determined that that 
would be counterproductive to a process going forward.
    Senator Whitehouse. That is not our process. We now have a 
bill and we are simply asking for a redline proposal.
    Mr. Dooley. And I guess this where there is just a note of 
frustration. We have met with Members of this Committee staff 
on the majority side. They are pretty aware of what we think 
needs to be, and we have given them ideas and suggestions. We 
haven't given them legislative language, but they are not 
reflected in the draft that we have today. And that is not 
necessarily because of a lack of specific suggestions that we 
have offered, but it is a fundamental disagreement on the 
direction to go.
    So I don't want people to think because we haven't 
necessarily provided specific legislative language that we 
haven't engaged in offering some pretty specific solutions, but 
there could be that they are not reflected in the legislation 
because there is a fundamental disagreement.
    Senator Whitehouse. Well, my time has expired, but I 
continue to believe that it would be both advisable and helpful 
to the process if you would take your wishes for this 
legislation and actually make them public and write them down 
in a way that everybody can look at and comment on them.
    Thank you.
    Senator Lautenberg. Thanks very much, Senator Whitehouse. 
You weren't here before, but we are still planting what I will 
say is old ground here.
    Mr. Dooley, you have been here. You know it isn't, and the 
reason you don't get to pick out the people that you want to do 
these things, you don't have the votes. That is fairly simple. 
And you are a smart fellow and you know that as much of a bite 
of the apple as you would like to take, that it is never going 
to be a majority.
    So please do what you can to respond, and where we fail, 
you know, point that out in more specific terms, but be as I 
think you see running through here, a little more constructive 
instead of unenforceable and that kind of thing. Figure out 
ways to get it done. You have a powerful organization there and 
we are happy to see you here, but with your compliments about 
my staff and the other Members' staffs here, I thought we were 
maybe going to clean house. But I have thought it through, and 
they are really very good, as you described them in the 
beginning.
    [Laughter.]
    Senator Lautenberg. So we will go on with a couple of 
questions that I have, and Senator Merkley is back, and Senator 
Crapo is still here.
    I would like to ask Mr. Denison a question. The Safe 
Chemicals Act as prescribed would require the industry to 
demonstrate the safety of new chemicals before they enter the 
market. And some have criticized that that requirement is too 
burdensome and have suggested preserving TSCA's current 
approach to new chemicals.
    What is needed in terms of new chemicals to have some 
strength in this program?
    Mr. Denison. Thank you, Senator.
    I think given the limited authority and capacity that EPA 
was given under TSCA, it has done as good a job as it can in 
trying to address new chemicals coming onto the market; 1,500 
notices are received every year. EPA has to process those 
within 90 days. And one of the major flaws is that it has, in 
almost all cases, no data that is submitted along with those 
chemicals by which it can make a decision about whether to 
allow that chemical on the market or impose conditions.
    The other countries in the developed world require a 
minimum set of safety information to come in when a chemical is 
filed. And that is something that the Safe Chemicals Act would 
address by requiring a level of information.
    Now, the bill indicates already that the level of 
information ought to be tiered and varied based on the nature 
of the chemical, how much is produced, how it is going to be 
used, and what else is known about it. So I want to emphasize, 
it is not a one-size-fits-all requirement. It would set an 
extremely high bar for any new chemical to get on the market, 
but there needs to be sufficient information for EPA to make a 
reasoned decision.
    Moreover, TSCA fails to have a mechanism by which EPA can 
readily revisit a new chemical after it is on the market should 
its production or use pattern change significantly. Only if it 
goes through an onerous regulatory process for each and every 
chemical can it get that kind of look-back provision, the 
ability to look again at a chemical if its use has expanded, 
for example, into a consumer product category that it wasn't 
used in before.
    The bill would provide an ability for EPA to look at those 
chemicals, and again this is consistent with the approach taken 
in other countries. Canada, which the American Chemistry 
Council and other industry players have often pointed to as a 
model program, actually does have a process by which chemicals 
as they enter into commerce and their use expands, more data 
are required and the government is required to re-review those 
chemicals in a tiered fashion.
    We think that kind of an approach could balance the need to 
ensure that you are not stifling innovation and overly impeding 
the introduction of new chemicals, but at the same time ensure 
there is some significant degree of safety assured of those 
chemicals before they get embedded in our economy, when it is 
very hard to do anything about it.
    We need that gate to be at the beginning of the process and 
not wait until we find some problem 10, 20 years later to 
actually ensure the safety.
    Senator Lautenberg. Mr. Sturdevant, the Safe Chemicals Act 
would preserve the ability of a State to go beyond the Federal 
standard on chemical safety to protect our citizens. How would 
establishing the strong Federal system on chemical safety 
affect the ability to establish the State-level regulations? 
Where might the States come in there, because we are trying to 
preserve an option for the States that they see a greater need 
for supervision?
    Mr. Sturdevant. I think with the changes envisioned in the 
bill, with a stronger Federal system, the need for the States 
to engage in these activities would decline I am sure. I think 
that there would still be cases where the ability to address 
problems that are occurring in particular States should be 
maintained. But I think that what we would see instead is just 
sort of a more normalized State-Federal relationship like we 
see with a whole bunch of other statutes where there is good 
Federal backstops and then States can tailor regulations 
accordingly in their own States.
    So I think that we would see that kind of normalized 
relationship where States address problems if and when they are 
needed, as opposed to trying to address the fundamental 
challenges that we have all been talking about here today that 
really need to be addressed at the Federal level.
    So I think that a result from me and my agency would be we 
would end up spending less time and energy on these efforts 
because we know that they are being addressed at the Federal 
level.
    Senator Lautenberg. Thank you.
    Senator Crapo, do you have something?
    Senator Crapo. Yes, Mr. Chairman.
    I just wanted to make an observation, a comment, and the 
witnesses can comment on this if they would choose. But it 
seems to me that there is sort of a consistent message point 
coming from the Democratic side of the aisle to the Chemistry 
Council here that they have to come forward with statutory 
language or their response is not acceptable.
    Although it is not unheard of for participants or 
stakeholders on an issue to propose statutory language, I don't 
know that I recall very many cases in which a Committee has 
demanded that and sort of set that bar as the bar of proper 
participation on an issue.
    I would tell you that if the effort is to create the 
impression that failure to come forward with a proposed 
alternative statutory proposal is the only acceptable way to 
engage on that issue, I think that is wrong. I can say that the 
American Chemistry Council and other stakeholders have been in 
my office many, many times to discuss this issue. I know that 
they are sincere about wanting to move forward.
    As far as I am aware, their concerns have been very, very 
well expressed. And I believe that every Member of this 
Committee knows what the conflicts are in terms of 
disagreements about the issues with regard to the statute.
    So I just felt like I had to say that because I felt like 
there was an impression being created that there was not an 
engagement or that there was not a willingness to try to work 
toward finding a solution and that has certainly not been my 
experience.
    Senator Lautenberg. If I might, just a quick response. I 
think that if you have a chance to look through Mr. Dooley's 
testimony and his commentary, I got the impression that it was 
thought by Mr. Dooley that we weren't paying enough attention 
to what they were offering. So my response was to say, OK, give 
us some statutory language here. But that isn't intended to be 
a word-for-word kind of thing. It is, OK, give us the challenge 
to what you see.
    And we invite the participation of Mr. Dooley just because 
we have some differences here. And I think that it is fair for 
you to voice your organization's views, but on the other side, 
you have seen the run-through here, including friends on both 
sides of the aisle, as to, OK, don't like it.
    Be more specific about what it is and maybe even do an 
evaluation that says, OK, we are willing to dismiss the fact 
that science says that there are some episodes of health 
problems as a consequence of fairly active use of some chemical 
here or there.
    What we are trying to do, and trying very hard to do, is 
begin. I started off in my comments this morning with we want 
an open process and you are included in that opening, 
obviously. But I think it has to be more specific as to not 
only what you don't like, but how would you fix it. And I think 
that is a reasonable request.
    Senator Crapo. My only comment was to the effect that it 
has been my impression that there has been very aggressive and 
extensive engagement from all sides. This is an issue on which 
I have seen a tremendous amount of activity. And I thought that 
there was an impression being created that was not accurate and 
I don't want that impression left in this hearing, that any of 
the participants and stakeholders have not been very engaged in 
trying to help make their positions and their proposed 
approaches known to the Committee.
    Senator Lautenberg. Fair enough.
    Senator Whitehouse. If I might add, I don't doubt for a 
moment that there has been heavy engagement. I think it helps 
with the transparency of the engagement when there is actual 
language that is produced. That is my only point.
    Senator Lautenberg. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    I wanted to explore a little bit the interaction between 
American companies and the current chemical regulation regime 
in the European Union. And I was wondering, Ms. Brody and Mr. 
Sturdevant, if you could describe succinctly some of the 
distinctions between the European system and the current 
American system? Of course, recognizing that our American 
companies are already engaged in, if you will, working with or 
within the framework that is laid out in Europe.
    Ms. Brody. Let me just start. Thank you for the question, 
Senator.
    Virtually all of the major players in the American chemical 
industry are global companies and are selling to the European 
Union and other markets.
    You would agree with me, Cal?
    And so all of them are looking at the new law in Europe, 
REACH, and figuring out how to test their chemicals and if 
their chemicals will meet the REACH safety standard. So I think 
it actually adds to this discussion about if the Safe Chemicals 
Act as written isn't the right language for the American 
Chemistry Council, what is? Because we have this statute moving 
in Europe and in other countries that is new and provides a 
place to start with in thinking about how can American chemical 
law add to what is already going on in other parts of the 
world.
    And I think it is very appropriate to look at how much 
money the American chemical industry is already spending to 
test their chemicals for the European market and to figure out 
how every single dollar that is being spent there can add 
information to what we could do to get the kind of exposure, 
information and use information that we need about chemicals in 
the United States, and to do that in an important new way.
    I think it is important to add, though, that European 
chemicals law was as broken as American chemicals law still is. 
And the European Union and its new Parliament took strong 
action with the opposition of the American Chemistry Council 
hard and heavy against REACH being enacted. But now that it is 
the law of the European Union, there is a whole lot we can 
learn from that and build on in what we do in TSCA reform.
    Senator Merkley. OK, great.
    Mr. Sturdevant.
    Mr. Sturdevant. My knowledge of REACH is quite general so I 
won't go into specifics. But one thing that has come out of 
REACH that I think is both worth looking at very hard and has 
already been beneficial is the amount of information that is 
coming out of the reporting required there. So that has been 
one of the key challenges for us at the State level is gaining 
access to information. So REACH is actually providing us 
information that we haven't had access to before.
    And I certainly understand the concerns expressed by Mr. 
Matthews about information and sharing too much information, 
and that inhibiting innovation. I think that there is a lot of 
room for improvement in the current law on confidential 
business information, how that is kept confidential. I think 
that there is a happy medium to be found here and REACH could 
perhaps inform that.
    Senator Merkley. Thank you.
    And to anyone on the panel who would like to comment on it, 
my impression is that the effort has been made to craft this 
bill that is before us in a fashion that the information 
prepared on chemicals for Europe would satisfy the U.S. law. Do 
you all share that view or do you have a different view? It 
would be helpful.
    Mr. Denison. I think there has been a concerted effort to 
ensure that we not reinvent the wheel or create a system that 
requires duplicate testing, et cetera. There is absolutely 
information coming from REACH that will be directly relevant in 
the U.S. and we should make sure that our EPA has the authority 
to get access to that information and that it is used in 
informing and meeting the requirements that industry faces in 
providing minimum information.
    So the bill I think goes very far in describing a variety 
of types of information, including existing information being 
developed under other jurisdictions that could be used to 
satisfy the data requirements under this bill. So it would only 
be the gaps that remain after that other information is 
factored in that would be a new burden, if you will, on the 
American industry.
    We have an advantage in going second here because the 
European Union has gone first. And they are taking a lot of 
arrows in the back because of that. But that actually makes the 
lift for the U.S. under TSCA reform that much easier.
    Senator Merkley. Mr. Matthews and Mr. Dooley, I think both 
of your associations have members who export products to 
Canada, which has yet a different structure, and to Europe. Any 
insights on how those reporting requirements are going? And 
also the degree to which essentially as information is 
developed for that market, whether that also then largely would 
address the requirements that we are seeking here in this Act?
    Mr. Dooley. Just a couple of comments. One on the REACH. 
Obviously, all of our companies are participating, complying 
with that. There is the data that we are providing to meet 
those requirements. I would say that based on our analysis of 
the legislation, the 847, it is unclear whether or not that 
data would be similar or identical. And obviously, we would be 
interested in seeing to the greatest extent possible a 
harmonization of those data requirements.
    But I would also cite that we would look to the Canadian 
model as being the preferred model over the REACH in that it 
does embrace a much more of a prioritization process where you 
would focus the resources of EPA, as well as the private 
sector, on those chemicals of the greatest concern, that we 
think would then lead to greater, more positive developments 
ensuring safer chemicals in commerce.
    So we think the Canadian model is actually one which is, 
from our perspective, would work better from a regulatory 
context, achieving a similar level of safety outcomes, and 
would also be more cost-effective and efficient from the 
industry perspective.
    Senator Merkley. Thank you.
    Senator Lautenberg. The record will be kept open.
    Before closing the hearing, I ask unanimous consent to have 
Senator Boxer's statement to be put in the record.
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Lautenberg. And the letter from the United 
Steelworkers, from the American Nurses Association, and a 
statement from the Procter and Gamble Company.
    [The referenced documents follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lautenberg. And with that, I thank all of you. I 
thought it was certainly an interesting meeting, but I think it 
is one that will help us move our legislation along.
    And Mr. Dooley, we wait to hear from you and any of you who 
have further comments you would like to make in writing.
    Thank you very much.
    The meeting is closed.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

                     Statement of Hon. Max Baucus, 
                 U.S. Senator from the State of Montana

    Chairman Lautenberg, thank you for holding this important 
hearing today on S. 847, the Safe Chemicals Act of 2011.
    The Toxic Substances Control Act (TSCA) needs to be 
reformed. There is a broad consensus that it is outdated. And 
this bill is an appropriate starting point for that effort.
    I have heard many times in recent years from Montanans who 
are passionate about improving chemical safety. Parents from 
across Montana, and mothers in particular, are worried about 
the products that surround their children. Montanans who suffer 
acute chemical sensitivity would lead better lives with a more 
transparent system. And I never forget the many Montanans 
touched by the nightmare of the asbestos contamination of the 
town of Libby, Montana--and the clear failure of TSCA to 
address the toxicity of asbestos.
    TSCA is not adequately protecting Americans, and it is our 
obligation to fix it. Congress should give EPA better tools to 
keep our families safe, including strong up-front requirements 
for obtaining data about chemicals and the ability to 
prioritize the risk of different chemicals.
    Looking forward, the more we can do to promote green 
chemistry innovation, the more new jobs we will create, 
technology we will export, and families we will keep safe. 
Rivertop Renewables in Missoula, Montana, is a perfect example 
of this kind of innovation. A balanced bill ought to ensure 
that homegrown companies like Rivertop can continue to lead the 
chemical industry.
    Thank you again for your hard work in crafting this bill 
and keeping the process inclusive. I look forward to working 
with you toward an agreement in this committee.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
